 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




          U.S. Department of Housing and Urban
                      Development
                     Washington, DC

               Office of Multifamily Housing
                    Section 236 Program




2013-PH-0001                 1             DECEMBER 11, 2012
                                                        Issue Date: December 11, 2012

                                                        Audit Report Number: 2013-PH-0001




TO:            Marie D. Head, Deputy Assistant Secretary for Multifamily Housing Programs,
                 HT
               Mary Ann Henderson, Director, Baltimore Multifamily Hub, 3BHMLAS
               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       HUD’s Region 3 Multifamily Housing Offices Generally Ensured That Section
               236 Rent and Excess Income Requirements Were Met


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of HUD’s Region 3 Offices of Multifamily
Housing’s monitoring of HUD’s Section 236 properties to ensure that rents and excess income
were properly identified and remitted to HUD.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                                December 11, 2012
                                                HUD’s Region 3 Multifamily Housing Offices Generally
                                                Ensured That Section 236 Rent and Excess Income
                                                Requirements Were Met


Highlights
Audit Report 2013-PH-0001


    What We Audited and Why                      What We Found

We audited HUD’s Region 3 Offices of            HUD’s Region 3 Offices of Multifamily Housing
Multifamily Housing to determine                generally ensured that Section 236 properties
whether HUD ensured that rents and              established basic and market rents and remitted excess
excess income for Section 236                   income to HUD as required. However, the
properties were properly identified and         Washington, DC, program center did not ensure 6 of
remitted to HUD. We performed this              its 16 Section 236 properties’ rents and excess income
audit based on our audit plan and               were properly identified.
problems identified during an external
audit of a Section 236 property located
in Washington, DC. 1

    What We Recommend

We recommend that the Director of
HUD’s Baltimore Multifamily hub
direct the Washington, DC, program
center to (1) review excess income
calculations totaling $19,121 to
determine whether the income is
adequately supported, and resubmit
excess income from non-Federal funds
as required; (2) require two Section 236
properties to repay from non-Federal
funds excess income totaling $55,091
that was retained without HUD’s
approval; (3) require two Section 236
properties to submit monthly excess
income reports as required; and (4)
follow its procedures to ensure adequate
oversight of Section 236 rents and
excess income.
1
 HUD OIG audit report number 2012-PH-1005,
Second Northwest Cooperative Homes
Association, Washington, DC, Did Not Identify
Rents and Remit Excess Income to HUD
                            TABLE OF CONTENTS

Background and Objective                                                        5

Results of Audit
      Finding: HUD’s Region 3 Generally Ensured That Section 236 Rent and Excess
      Income Requirements Were Met                                               7

Scope and Methodology                                                           10

Internal Controls                                                               11

Appendixes
A.    Schedule of Questioned Costs                                              12
B.    Auditee Comments                                                          13
C.    Section 236 Properties Not Monitored                                      14




                                             4
                          BACKGROUND AND OBJECTIVE

The Section 236 program, established by the Housing and Urban Development Act of 1968,
combined Federal mortgage insurance with interest reduction payments to the lender for the
production of low-cost rental housing. Under this program, the U.S. Department of Housing and
Urban Development (HUD) provided interest subsidies to lower a project’s mortgage interest
rate to as low as 1 percent. This program no longer provides insurance or subsidies for new
mortgage loans, but existing Section 236 properties continue to operate under the program. The
interest reduction payment results in lower operating costs and subsequently a reduced rent
structure.

The program’s basic rent is the rent that the owner must collect to cover the property’s operating
costs, given the mortgage interest reduction payments made to the property. The program’s
market rent represents the rents needed to cover operating costs if the mortgage interest were not
subsidized. Members occupying program units are required to pay rents based on annual
income. At a minimum, members must pay at least basic rent for the program units but cannot
pay rent that exceeds the established market rents. Members paying less than the Section 236
market rent are considered assisted members. If members pay rents that are above the basic rent
amount, HUD defines the additional rent as excess income. Program participants are required to
resubmit the excess income to HUD monthly.

As of April 2012, there were 140 Section 236 properties located within Region 3 Offices of
Multifamily Housing (the Philadelphia and Baltimore hubs and their four program centers). The
hubs and program centers are responsible for asset management and loan servicing
responsibilities in monitoring and assisting owners and managing agents to maintain projects in
good physical and financial condition. The table below shows the number of Section 236
properties under the jurisdiction of the respective HUD offices.

     Region 3 Office of                                      Number of Section             Number of units
                                                    2
    Multifamily Housing               Office type             236 properties
       Pittsburgh, PA                Program center                 49                            5,292
      Philadelphia, PA                    Hub                       28                            3,034
       Richmond, VA                  Program center                 26                            3,138
      Washington, DC                 Program center                 16                            2,262
       Baltimore, MD                      Hub                       14                            2,108
      Charleston, WV                 Program center                  7                              864
     Total Section 236
         properties                                                   140                        16,698



2
 Within the Region 3 jurisdiction, there are two hubs and four program centers. In addition to monitoring its own
properties, the Philadelphia hub provides oversight to the Charleston and Pittsburgh program centers, and the
Baltimore hub provides oversight to the Richmond and Washington, DC, program centers.


                                                         5
Our audit objective was to determine whether HUD’s Region 3 Offices of Multifamily Housing
ensured that rents and excess income for Section 236 properties were properly identified and
remitted to HUD.




                                              6
                                RESULTS OF AUDIT


Finding: HUD’s Region 3 Generally Ensured That Section 236 Rent
and Excess Income Requirements Were Met
HUD’s Region 3 Offices of Multifamily Housing generally ensured that its Section 236
properties established basic and market rents and remitted excess income to HUD as required.
Five of the 6 Multifamily program offices reviewed ensured that all of their 124 properties
followed HUD procedures for establishing appropriate rents and submitting monthly excess
income reports to HUD. However, the Washington, DC, program center did not ensure that 6 of
its 16 properties established appropriate rents and submitted monthly excess income reports (see
appendix C). Specifically, two properties did not establish rents and four properties did not
properly report excess income. This condition occurred because the program center did not
always review Section 236 rents and excess income when conducting management reviews.
Without adequate oversight, there is a risk that tenants are not paying appropriate rents and
excess income amounts reported are inaccurate.


 The Washington, DC, Program
 Center Did Not Ensure That
 Two Properties Established
 Appropriate Rents


              The Washington, DC, program center did not ensure that two properties
              established the appropriate rents as required. Specifically, Cedar Lane
              Apartments did not establish a market rent, and Hedin House did not establish a
              basic rent. The rent schedules reviewed indicated that both properties also
              received Section 8 housing assistance payments. Documentation reviewed
              showed that the Section 8 rents were established as required. HUD Handbook
              4350.3, REV-1, paragraph 5-29(A)(1), requires Section 236 properties to establish
              HUD-approved basic rent and market rent. Basic rent is the minimum rent that all
              Section 236 tenants must pay. It represents the rent needed to cover the cost to
              operate the property after HUD has provided mortgage assistance to reduce the
              mortgage interest expense. The market rent represents the amount of rent the
              owner would have to charge if the mortgage were not subsidized. Tenants pay a
              percentage of their income toward rent but never pay less than the basic rent or
              more than the market rent for the property.

              The program center was not aware that the properties had not established the
              required Section 236 rents. Although the properties did not establish rents as
              required, Cedar Lane Apartments reported and was approved to retain excess
              income totaling $19,121, while Hedin House reported zero excess income. Since
              the required rents had not been established, there was no assurance that the

                                               7
          calculation to determine excess income was accurate. Thus, the excess income
          being reported is classified as unsupported until HUD approves the rents and
          calculation of excess income.

The Washington, DC, Program
Center Did Not Ensure That
Four Properties Properly
Reported Excess Income


          The Washington, DC, program center did not ensure that four properties followed
          excess income requirements. Foster House and Manor Towne Mutual Homes did
          not submit monthly excess income reports as required. Manor Towne Mutual
          Homes had not submitted monthly excess income reports since June 2009. HUD
          regulations at 24 CFR (Code of Federal Regulations) 236.60(a) define excess
          income as cash collected as rent from the residents by the borrower on a unit-by-
          unit basis that exceeds the HUD-approved unassisted basic rent. The regulations
          further require that excess income be returned to HUD monthly. The program
          center explained that both properties had a change in management agent. The
          newly appointed management agent was not aware of the monthly excess income
          requirements. The program center had begun to provide technical assistance to
          management to ensure that excess income requirements are met. However, the
          technical assistance to be provided should include assistance with the calculation
          and remittance of excess income.

          For the remaining two properties, both properties retained excess income without
          HUD’s approval. Northwest Cooperative Homes #15 retained excess income
          totaling $54,658 for 6 months without HUD’s approval. Further, the property was
          not eligible to retain excess income because it owed HUD $693,312 in delinquent
          excess income. Another property, Brookland Manor, retained 1 month of excess
          income totaling $433 without HUD’s approval. HUD regulations at 24 CFR
          236.60(c) state that the owner may apply to retain excess income and obtain
          HUD’s approval to do so when needed. To be approved to retain excess income,
          the owner cannot be delinquent in submitting excess income. HUD was not
          aware of the retained excess income until our audit, but it informed us that it
          would comply with our recommendation to ensure that the ineligible funds are
          remitted to HUD as required.

The Washington, DC, Program
Center Did Not Follow HUD’s
Management Review
Procedures

          The Washington, DC, program center did not follow its management review
          procedures. For Section 236 properties that also received housing assistance
          payments, a management review was performed by a contract administrator to

                                           8
                 determine compliance with the housing assistance payments contract. For four of
                 the six properties identified in this report, the contract administrator used form
                 HUD-9834 3 when performing its review but was not required to ensure
                 compliance with Section 236 requirements. HUD Handbook 4350.1, REV-1,
                 paragraph 6-11(E), requires that HUD conduct a review to complete the sections
                 of the management review not completed by the contractor to determine
                 compliance with the regulatory agreement and other HUD requirements. HUD
                 did not follow its own management review procedures as required.

    Conclusion

                 The Washington, DC, program center did not always ensure that Section 236
                 properties established basic and market rents and remitted excess income to HUD
                 as required. The management reviews performed did not always include a review
                 to ensure compliance with Section 236 program requirements. Without proper
                 oversight, there is a risk that excess income that has been reported to HUD is
                 inaccurate or will not be remitted.

    Recommendations

                 We recommend that the Director of HUD’s Baltimore Multifamily hub direct the
                 Washington, DC, program center to

                 1A.      Require Cedar Lane Apartments and Hedin House to establish appropriate
                          rents, review excess income calculations totaling $19,121 to determine
                          whether the income is adequately supported, and resubmit excess income
                          to HUD from non-Federal funds as required.

                 1B.      Require Northwest Cooperative Homes #15 and Brookland Manor to
                          repay from non-Federal funds excess income totaling $55,091 that was
                          retained without HUD’s approval.

                 1C.      Require Foster House and Manor Towne Mutual Homes to submit
                          monthly excess income reports as required.

                 1D.      Follow its procedures to ensure adequate oversight of Section 236 rents
                          and excess income. During its management reviews, the program center
                          should review rents and excess income requirements to ensure compliance
                          with Section 236 requirements.



3
 Form HUD-9834 is the form used when performing management reviews for multifamily housing projects. HUD
staff or its project-based contract administrators completes the questions on the form to evaluate the project’s
compliance with HUD multifamily program requirements.


                                                        9
                        SCOPE AND METHODOLOGY

We conducted the audit from March to October 2012 in HUD’s Washington, DC, program center
and our offices located in Richmond, VA, and Baltimore, MD. The audit covered the period
April 2011 through April 2012 and was expanded as necessary to include other periods. To
achieve our audit objective, we relied in part on computer-processed data. The data included
rent schedules, excess income reports, and other computer-generated data. Although we did not
perform a detailed assessment of the reliability of the data, we did perform a minimal level of
testing and found the data to be adequate for our purposes. To accomplish our objective, we

   •   Interviewed HUD’s Office of Multifamily Housing staff responsible for monitoring
       Section 236 properties;

   •   Reviewed 24 CFR Part 236 and other HUD requirements and handbooks; and

   •   Reviewed rent schedules, excess income documentation, and management review reports
       for 140 Section 236 properties within Region 3.

To verify that HUD ensured that rents and excess income were properly identified and remitted
as required, for the 140 Section 236 properties within our region, we reviewed 140 rent
schedules and 1,264 monthly excess income reports for the period April 2011 to April 2012. We
also reviewed the most recent management occupancy review for each property.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that the program meets
                      its objectives.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •      The Washington, DC, program center did not ensure that six properties
                      followed Section 236 requirements.




                                                 11
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation
                                         Ineligible 1/   Unsupported 2/
                      number
                        1A                                  $19,121
                        1B                $55,091



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             12
Appendix B

             AUDITEE COMMENTS




                    13
Appendix C

          SECTION 236 PROPERTIES NOT MONITORED


                                               Monthly excess     Excess income
                        Appropriate rents    income report not   retained without
    Property name        not established         submitted       HUD’s approval
Hedin House                     X
Cedar Lane Apartments           X
Foster House                                        X
Manor Towne Mutual
                                                    X
Homes
Northwest Cooperative
                                                                        X
Homes #15
Brookland Manor                                                         X




                                        14
